                                             NATIONAL SCIENCE FOUNDATION
                                             OFFICE OF INSPECTOR GENERAL
                                               OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

11   Case Number: A02070039
                                                                           11        Page 1 of 1

             In July 2002, the complainant1 reviewed the subject's2 NSF proposal.3 Apart from
             the review, the reviewer informed the Program Director (PD)4 that the subject had
     :       allegedly copied text from someone else's grant. Following NSF's policy, the PD
             referred the matter to us.

             We wrote the subject who told us he previously asked a collaborator5 on a grant6 for
             a copy of the proposal they submitted to NSF because he was in the process of
             preparing his own proposal. Additionally, the subject had asked the PI of that
             grant for related, research information. The subject appropriately referenced the
             PI'S and collaborator's research information in his proposal, but had not referenced
             some text (about 15 sentences) he copied verbatim from their proposal. The subject
             said he generally referenced anything he considered a "result," e.g., the research
             information. He did not consider the descriptive text he copied a result.
             Furthermore, since he obtained the text from one of its authors, he assumed he had
             permission to use it. We explained the need to attribute text, a s well a s results,
             especially if using text verbatim. Of his own volition, the subject contacted the PI
             and collaborator and apologized.

             We concluded in this case that the subject's use of someone else's text was
             inappropriate, but did not rise to the level of research misconduct. We suggested a s
             a resolution that the subject correct the record by submitting a corrected proposal to
             the PD. The subject and PD agreed this was a satisfactory resolution. Accordingly,
             this case is closed.




                 1 (footnote redacted).
                 2 (footnote redacted).
                 3 (footnote redacted).
                 4 (footnote redacted).
                 5 (footnote redacted).
                 6 (footnote redacted).




 -                            Investigator           Attorney         Supervisor             A1GI

         Sign 1 date
